fT

C@QCKLE

2311 Douglas Street Le g al Briefs E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.
JAY LAWRENCE FRIEDHEIM,
Petitioner,
v.
DANE S. FIELD, Trustee in USBC Case 14-01520,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8263 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of January, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary ‘
eae | A Atle Ohawh Ohl
My Commission Expires Nov 24, 2020 ”

Notary Public Affiant

 

39382
